Audit Report




OIG-11-112
INFORMATION TECHNOLOGY: BEP's Network and Systems
Security Was Found to Be Insufficient



September 30, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

    Results in Brief ............................................................................................. 2

    Background ................................................................................................. 4

    Findings and Recommendations ..................................................................... 5

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              22
    Appendix     2:      Management Response .........................................................          24
    Appendix     3:      Screenshots of Real-Time BEP User Activity ............................                29
    Appendix     4:      Major Contributors to This Report ...........................................          31
    Appendix     5:      Report Distribution ................................................................   32

Abbreviations

    BEP                  Bureau of Engraving and Printing
    BIOS                 Basic Input Output System
    CIO                  Chief Information Officer
    HTTPS                Hypertext Transfer Protocol Secure
    IT                   Information Technology
    JAMES                Joint Audit Management Enterprise System
    OCIO                 Office of the Chief Information Officer
    OIG                  Treasury Office of Inspector General
    OPTR                 Office of Privacy, Transparency, and Records
    OMB                  Office of Management and Budget
    USB                  Universal Serial Bus




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)                    Page 1
                                                                               Audit
OIG
The Department of the Treasury
                                                                               Report
Office of Inspector General



                        September 30, 2011

                        Larry R. Felix
                        Director
                        Bureau of Engraving and Printing

                        The objective of this audit was to determine whether sufficient
                        protections were in place to prevent and detect intrusions into the
                        Bureau of Engraving and Printing’s (BEP) network and systems.

                        To accomplish our objective, we performed an internal vulnerability
                        assessment and penetration test of BEP’s network and systems.
                        We also tested BEP’s internet-facing websites external to BEP’s
                        network using only information available to the general public.
                        Additionally, we performed a social engineering test to determine
                        whether BEP users were aware of, and carrying out their
                        responsibilities, in protecting the bureau’s information technology
                        (IT) resources.

                        We performed our fieldwork at BEP headquarters location in
                        Washington, DC, from May 2010 through April 2011. The audit
                        was performed in accordance with generally accepted government
                        auditing standards. Our objectives, scope, and methodology are
                        described in appendix 1.

Results in Brief
                        We determined that BEP did not establish sufficient protection for
                        its network and systems and should enhance its security controls
                        to protect against threats posed by malicious insiders. Specifically,
                        during our social engineering exercise, we successfully persuaded
                        23 BEP users to give us access to their computers (100 percent of
                        those attempted) using their accounts. While impersonating BEP
                        contractors with unescorted access to the facility, every user
                        whom we approached gave us full access to their computer
                        without challenge. In fact, in one instance, a BEP employee
                        observed us standing at the door to a restricted area. Rather than


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 2
                        question our presence, he opened the door and let us in, giving us
                        unescorted access to the entire administrative area.

                        Our work also identified significant deficiencies in BEP’s network
                        and systems related to its patch management processes and
                        system configurations. Specifically, we found critical vulnerabilities
                        because of a number of missing security patches, some more than
                        1 year old. For example, we were able to gain system-level access
                        to a BEP desktop missing an 8 year old patch, and user-level
                        access to a BEP server missing a 3 year old patch. By taking
                        advantage of these vulnerabilities, we were able to gain full access
                        to the desktop, where we were able to create, edit, delete, and
                        move files. We were also able to access files and databases on the
                        server.

                        Finally, we noted that BEP did not fully comply with the Office of
                        Management and Budget (OMB) Memorandum M-10-22, “Guidance
                        for Online Use of Web Measurement and Customization
                        Technologies” (June 25, 2010). This memorandum emphasizes the
                        need to safeguard the privacy of the American public while
                        increasing the Federal Government’s ability to serve the public by
                        improving and modernizing its activities online. To that end, the
                        guidance applies to any Federal agency use of web measurement
                        and customization technologies by providing clear, firm, and
                        unambiguous protection against any uses that would compromise
                        or invade personal privacy. This guidance is not limited to any
                        specific technology or application (such as persistent cookies), 1
                        and includes Federal agency use of third-party web measurement
                        and customization technologies.

                        Considering the deficiencies we identified during the course of this
                        audit and subsequent discussions regarding them with the BEP
                        Chief Information Officer (CIO) and his staff, we were concerned
                        over the state of BEP’s network and systems security and what we
                        found to be a lack of effective oversight exercised by its CIO.



1
 The term “cookie” covers a wide array of techniques used to track information about web site usage.
This report uses the term as shorthand for “persistent cookie,” a web technology that can track the
activity of users over time and across different web sites. (From OMB “Cookies Letter, 07-28-00,”
http://www.whitehouse.gov/omb/inforeg_cookies_letter72800). OMB M-10-22 identifies persistent
cookies as a specific technology used in web measurement and customization.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)        Page 3
                        We are making a number of recommendations to the Director of
                        BEP to address the weaknesses identified during the course of this
                        audit. Among those recommendations are the need to reinforce and
                        enhance security awareness training, emphasizing the malicious
                        insider threat, conduct periodic social engineering tests to assess
                        the effectiveness of user security awareness training, improve
                        BEP’s patch management process to ensure that all critical patches
                        are applied on a timely basis, and ensure the antivirus central
                        server and the intrusion detection system records and maintains all
                        information security alerts.

                        In a written response to a draft copy of this report, BEP
                        management provided us with its planned corrective actions, and
                        discussed those corrective actions it already has underway. BEP’s
                        response meets the intent of our recommendations. BEP’s written
                        response is included in appendix 2.

Background
                        The Federal Information Security Management Act, Title III of the
                        E-Government Act of 2002, requires each federal agency’s
                        information security program to provide information security for the
                        information and information systems that support the operations
                        and assets of the agency. The program should include periodic
                        assessments of the risk and magnitude of the harm that could
                        result from the unauthorized access, use, disclosure, disruption,
                        modification or destruction of information and information systems
                        that support the operations and assets of the agency. Specifically,
                        agencies are required to perform periodic testing and evaluation of
                        management, operational, and technical controls of information
                        systems depending on risks; and institute a process for planning,
                        implementing, evaluating and documenting remedial action to
                        address any deficiencies or exploits. An independent network and
                        system security assessment, like this one, is performed to validate
                        the controls that have been put in place are functioning properly.

                        BEP’s mission is to design and manufacture high quality security
                        documents that deter counterfeiting and meet customer
                        requirements for quality, quantity, and performance. BEP’s primary
                        function is to print billions of dollars, referred to as Federal Reserve
                        Notes, each year for delivery to the Federal Reserve System. As



BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)    Page 4
                        the government’s printer, the BEP’s customers and stakeholders
                        expect and demand the highest degree of security. An
                        unauthorized attack or system intrusion on BEP’s network and
                        systems could be detrimental to that mission by putting at risk the
                        government’s ability to print paper money and other security
                        documents.

Findings and Recommendations

Finding 1               Security Awareness Training Program Did Not Harden
                        Users Against Social Engineering Attacks

                        We determined that BEP’s security awareness training program did
                        not harden users against social engineering attacks. As a
                        consequence, users allowed unknown individuals, our auditors
                        posing as BEP contractors, complete access to their computers.
                        During our social engineering test, we successfully persuaded all
                        23 BEP users we approached (100 percent) to give us full access
                        to their computers without challenging our credentials. Specifically,
                        we approached the users and asked them if we could “check the
                        antivirus software” installed on their computers without identifying
                        ourselves. We intentionally turned our BEP-issued contractor
                        badges inward so that the users could not see our names and
                        pictures on the badges. Even though we were unknown to the
                        users we approached, none of them challenged us or asked to see
                        our badges or any paperwork. In short, these users allowed
                        individuals, whose only visible credential was the back side of a
                        contractor badge, complete access to their computers.

                        At each system, we either asked the user to stay logged in or to
                        log back in for us. Some of these users stayed and watched us use
                        their computers (e.g., extracting files, running executables, and
                        using the command prompt), while others left us alone. In every
                        case, we were given complete access to the computer without the
                        user visibly displaying any degree of skepticism or even asking our
                        names. Once on the computer, we took full control with the user’s
                        access level. We then used applications stored on our Universal
                        Serial Bus (USB) thumb drive and Compact Disc we brought with
                        us to extract data from their computers and view their files. As a
                        result, we were able to, among other things, find and extract
                        Personally Identifiable Information from some of the computers.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 5
                        Examples of the types of Personally Identifiable Information we
                        were able to access included BEP employee names, social security
                        numbers, places of birth, time in government, entry on duty dates,
                        and mid- and end-of-year performance appraisals.

                        On one occasion, a BEP employee held the door open, allowing us
                        to enter a restricted administrative area unescorted. At the time,
                        our badges were still facing inward, and the employee did not
                        challenge our motives for entry. Once inside the secured area, we
                        were able to gain access to additional computers.

                        On the 2nd day of our social engineering test, the BEP Chief of
                        Office of Critical Infrastructure and IT Security told us that five BEP
                        users from the previous day’s social engineering test had verbally
                        reported our activities. However, BEP was not able to provide us
                        with any help desk tickets documenting those reports.

                        The other 18 users did not report our activities to anyone.
                        Therefore, at best, five targeted users were suspicious enough of
                        our activities to call security after we left, but not suspicious
                        enough to ask our names or to see our credentials before allowing
                        us access to their computers. The other 18 users displayed no
                        concern or presumably deemed our presence as nothing more than
                        a minor disruption.

                        All BEP users must sign BEP IT Rules of Acceptable Use Form
                        8394 (Rev. 1-08). These rules require, among other things, that
                        users not let anyone else use their account or associated account
                        privileges. Users are also supposed to notify the system
                        administrator, the help desk, or the IT Security Division of any
                        unusual occurrences during logging in or signing off or during use
                        of their computer. In short, the rules clearly state that users are
                        responsible for protecting any information used or stored by their
                        account and those users must report any incidents of possible
                        misuse, suspected viruses or IT security incidents or weaknesses in
                        IT security to the help desk.

                        Based on this test, even though BEP had an established annual user
                        security awareness training program, we found an alarmingly high
                        failure rate of BEP’s security awareness practices.




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 6
                        When we spoke subsequently with several users who had given us
                        access to their computers, they told us that they did not remember
                        the same set of circumstances that we presented to them. For
                        example, one user said that he thought his computer was logged-
                        off when he left us at his desk, and another user said that he
                        assumed we were contractors from BEP’s help desk.

                        We believe BEP users’ susceptibility to these types of attacks may
                        be attributed to, at least in part, the lack of regular social
                        engineering training. Part of this training would include
                        unannounced social engineering tests to reinforce user awareness
                        and provide an understanding of how users can defend themselves
                        and BEP against social engineering attacks. BEP could also use
                        these opportunities to communicate the possible consequences of
                        a breach to include compromising the confidentiality, integrity, and
                        availability of BEP information.

                        Recommendations

                        We recommend that the Director of BEP do the following:

                        1.     Reinforce and enhance through BEP’s regular user awareness
                               training the following social engineering countermeasures:
                             •     Users should be instructed/reminded to request the
                                   identification of unfamiliar individuals who are requesting
                                   access to their BEP computers.
                             •     Users should be instructed/reminded to log-off or lock their
                                   computers any time they leave their computers
                                   unattended.
                             •     Users should be instructed/reminded to not allow anyone
                                   else to use their BEP credentials or accounts, including
                                   those from the BEP help desk.
                             •     Users should be instructed/reminded to not allow anyone
                                   into secure areas without valid credentials.
                             •     Users should be instructed/reminded to inform BEP help
                                   desk if they notice unauthorized individuals accessing BEP
                                   computers or secure areas.

                        Management Response

                        BEP management stated that its employees are required to take the
                        required training program established and maintained by Treasury


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)    Page 7
                        on the Treasury Learning Management System. BEP will request
                        that the Treasury office that manages the training program include
                        additional instructions related to the risk posed by malicious
                        insiders. Additionally, BEP will prepare an “All Employee E-mail”
                        and an article in the monthly Communicator to reinforce the items
                        in the recommendation.

                        OIG Comment

                        Management’s planned corrective actions are responsive to our
                        recommendation. BEP management will need to establish definitive
                        dates for when they expect these corrective actions to be
                        implemented.

                        2.    Conduct periodic social engineering tests to assess the
                              effectiveness of user security awareness training.

                        Management Response

                        BEP management stated that it will augment its current testing
                        with additional scenarios associated with malicious insider threats
                        similar to those utilized during this test. The first roll out of these
                        new tests will occur prior to the end of calendar year 2011.

                        OIG Comment

                        Management’s planned corrective action is responsive to our
                        recommendation


Finding 2               BEP’s Patch Management Process Was Not Effective in
                        Protecting Its Network and Systems

                        We determined that BEP’s patch management 2 process was not
                        effective because a substantial number of critical3 patches were
                        missing from bureau desktops and servers. As a result, BEP’s

2
  Patch management is a security practice designed to prevent the exploitation of IT vulnerabilities that
exist within an organization. The expected result is to reduce the time and money spent dealing with
vulnerabilities and exploitation of those vulnerabilities.
3
  A critical vulnerability is a remote exploit, granting root or administrator access, or having an active
worm or virus spread in the public realm.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)             Page 8
                        network and systems were not fully safeguarded, leaving them
                        vulnerable to attacks from malicious insiders. We also found that
                        BEP management did not document its rationale for not applying
                        critical patches.

                        We scanned 1,136 desktops at BEP headquarters in Washington,
                        DC, and found that BEP’s desktops were missing a total of 220
                        critical patches. Of those 220 missing critical patches, 60 percent
                        were more than 1 year old. Similarly, we scanned 95 servers at
                        BEP, and found those servers were missing a total of 152 critical
                        patches. Of those 152 missing critical patches, 50 percent were
                        more than 1 year old. In all, over half of the missing critical patches
                        we identified were more than 1 year old without any documented
                        explanation as to why BEP did not install the patches.

                        Among the missing critical patches that we identified were one
                        from a desktop, missing since 2002, and one from a server,
                        missing since 2007. Using that information, we were able to
                        successfully exploit both the desktop and server.

                        With regard to the desktop exploitation, we were able to gain
                        remote system-level access on that computer. This access allowed
                        us to create, edit, delete, and move files. It enabled us to remotely
                        retrieve files, take screenshots, and run our programs on the target
                        desktop. We were also able to extract the local Security Accounts
                        Manager 4 file and decrypt the password of a local account with
                        administrative privileges for that computer.

                        During this process, we viewed real-time user activity. For
                        example, we saw a BEP user viewing a scanned copy of a $10
                        note on his desktop. Our remote view of the compromised desktop
                        also allowed us to see that the user appropriately received an
                        antivirus notification, while our attack was taking place. To our
                        surprise, however, we also saw that user disregard the antivirus
                        notification by moving it to the bottom of the screen, and continue
                        to work. Appendix 3 contains two remote screenshots we took of
                        the exploitation just described; the screenshots capture the real-
                        time antivirus notification that was received by the user and the

4
  Security Accounts Manager is a registry file in Windows NT, Windows 2000, and later versions of
Windows. It stores users’ passwords in a hashed format (in LM hash and NTLM hash). Obtaining this
information enables someone to decrypt passwords.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)       Page 9
                        user moving that notification to bottom of the screen so that he
                        could continue to work. It should be noted that portions of the
                        screenshots included in appendix 3 have been redacted.

                        Following up on the antivirus notification, BEP management told us
                        that the antivirus central server did not log this incident. BEP
                        followed-up with the vendor of the antivirus software to determine
                        why the antivirus central server failed to log the incident. At the
                        time of this report, the software logging failure remained
                        unresolved.

                        With regard to our server exploitation, we were able to gain user-
                        level access, allowing us to create, edit, delete, and move files, as
                        well as access a database. Similar to the desktop exploitation,
                        BEP’s intrusion detection system failed to log our activities on the
                        server.

                        In interviews with BEP management, we were told that the IT
                        Security Division (IT Security) is responsible for identifying
                        vulnerabilities in BEP’s network and systems and reporting them to
                        the IT Technical Support Division (IT Operations) for remediation
                        via a ticketing system. However, we found that not all of these
                        vulnerabilities were being remediated. According to the IT
                        Operations Chief, some tickets were being closed without full
                        remediation. IT Security told us they ran regular vulnerability scans
                        and generated a help desk ticket so that IT Operations could
                        remediate the vulnerabilities discovered by the scans. IT Operations
                        would then apply most of the patches and close the ticket because
                        some of the patches were deemed not applicable or would present
                        a risk to some IT resources. However, IT Operations did not
                        document the rationale/business reasons why these patches were
                        not applied. Also, IT Security could not tell us if the same
                        vulnerabilities were discovered in consecutive scans because they
                        did not analyze of the vulnerabilities to determine if the same
                        vulnerabilities were repeatedly being reported.

                        We were so concerned about what we had found that we provided
                        BEP’s CIO staff with the reports generated by our automated
                        assessment tools in July 2010, so that timely corrective actions
                        could be taken. The reports provided details on specific
                        vulnerabilities detected and exploited, and the suggested actions
                        needed to address them.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 10
                        During the Notifications of Findings and Recommendations meeting
                        held in January 2011, we were surprised to learn that BEP had not
                        reviewed the reports because they found the tool-generated reports
                        too copious. Therefore, no corrective action or mitigation was
                        taken with respect to the vulnerabilities that we had identified 6
                        months earlier.

                        According to BEP IT Security Policy and Procedures Manual, No.
                        10-08.35 (August 1, 2005), the manager of IT Operations is
                        responsible for ensuring that systems and applications are
                        maintained with the proper updates and security patches, and for
                        providing status on the state of the current IT infrastructure, to
                        include implementing, documenting, and monitoring patches,
                        workarounds and updates. Treasury CIO memorandum M-06-01,
                        “Improving the Department’s Security Plan of Action and Milestone
                        Process” (March 24, 2006) 5 requires that security weaknesses be
                        entered into the Plan of Action and Milestones to provide an
                        auditable trail of the weakness remediation. Treasury Directive
                        Publication 85-01, “Treasury Information Technology Security
                        Program” (June 9, 2009), control S-PM.2 requires that bureaus
                        ensure security patches are tested and installed on a timeline in
                        accordance with the criticality of the patches. Additionally, the
                        National Institute of Standards and Technology Special Publication
                        800-61, “Computer Security Incident Handling Guide” (March
                        2008), states that organizations should establish logging standards
                        and procedures to ensure that adequate information is collected by
                        logs and security software.

                        BEP management was unable to provide us any reason for not
                        applying the critical patches that were over 1 year old.
                        Furthermore, IT Operations did not document the business
                        reasons/rationale for not applying patches. The BEP IT Operations
                        Chief acknowledged that there was no documentation for patches
                        that were not applied, and that the unapplied patches were not
                        entered into the Plan of Action and Milestones process as required
                        by the Treasury CIO Memorandum M-06-01 for security


5
  Agency CIOs, working with other appropriate agency officials, are responsible for developing a
POA&M for each program and system for which a weakness was identified. The purpose of a POA&M
is to help agencies identify, assess, prioritize, and monitor progress of corrective efforts for security
weaknesses in programs and systems.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)           Page 11
                        weaknesses. We believe this deficiency is due, at least in part, to
                        the absence of an adequate patch tracking system in IT Security
                        and lack of oversight by the managers of IT Operations, IT
                        Security, and the CIO.

                        If BEP does not apply patches in a timely manner, the
                        vulnerabilities resulting from these missing patches could put BEP’s
                        systems at risk for exploitation by internal and external hackers. As
                        evidence, we compromised two systems using exploits known to
                        the manufacturer who recommended patches 3 and 8 years,
                        respectively, prior to our tests.

                        In addition, the lack of comprehensive incident reporting further
                        hampers BEP’s efforts to detect attackers and deter them from
                        gaining access to BEP’s systems. Our test exposed a failure of both
                        the user and the antivirus central server to identify and alert
                        management of the security compromise. Had our attacks been
                        malicious, BEP would not even have been aware that we
                        compromised the targeted systems or any of the information
                        residing on those systems.

                        Recommendations

                        We recommend that the Director of BEP do the following:

                        3.    Improve the patch management process to ensure that all
                              critical vulnerabilities are patched, mitigated, or justified as to
                              why the risk of not patching was accepted (e.g., business
                              reasons) in a timely manner. Additionally, vulnerabilities are to
                              be documented in the Plans of Action and Milestones as
                              specified in TCIO M-06-01.

                        Management Response

                        BEP management stated that it will continue to improve the patch
                        management process by proactively addressing flaws exposed in
                        deployed hardware and software products and remains committed
                        to following best practices regarding patch management and
                        maintaining a defense-in-depth architecture to manage risks
                        throughout the enterprise.




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)    Page 12
                        OIG Comment

                        Management’s planned corrective action meets the intent of our
                        recommendation. However, we would like to emphasize that the
                        critical vulnerabilities that we identified allowed us unauthorized
                        access to sensitive information. Furthermore, BEP will need to
                        review the missing patches that allowed for the critical
                        vulnerabilities that we identified and determine whether to mitigate
                        or accept the vulnerabilities as risks. In addition, unmitigated
                        vulnerabilities are to be documented in the Plans of Action and
                        Milestones as specified in TCIO M-06-01. BEP management will
                        need to establish definitive dates that these planned actions are
                        expected to be completed in JAMES.

                        4.    Ensure the intrusion detection system and the antivirus central
                              server are corrected to properly log all information alerts
                              generated by desktops and servers.

                        Management Response

                        BEP management stated that it contacted the relevant vendors to
                        review and verify the system configurations and confirmed the
                        systems are functioning correctly to properly log all information
                        alerts.

                        OIG Comment

                        Management’s corrective action meets the intent of our
                        recommendation.

Finding 3               Some BEP Systems Were Configured With Ineffective
                        Security Settings

                        We found that some of BEP systems were configured with
                        ineffective security settings, resulting in critical vulnerabilities. As
                        we demonstrated, some of these vulnerabilities put BEP systems at
                        risk of exploitation by malicious insiders. With that said, many of




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 13
                        these vulnerabilities could be eliminated through modification of
                        security settings.

                        Below are the categories of vulnerabilities we found in some BEP
                        systems during our social engineering and penetration tests that
                        resulted from ineffective security settings:

                        •   Lack of full disk encryption. The hard drives of some desktops
                            were not encrypted, which allowed us to easily gain access to
                            BEP data.

                        •   Basic input output system (BIOS) 6 open access. Some BEP
                            systems were found with BIOS settings that allowed booting
                            from alternate media devices without password prompting. This
                            enabled us to bypass the security controls on the desktops.

                        •   Unauthorized USB devices allowed. Some of the systems we
                            tested allowed us to use unauthorized USB devices to access
                            data on the systems.

                        •   Open Windows registry access 7 . One system we tested allowed
                            user access to the Windows registry. The availability of the
                            registry allowed us to gather more complete and accurate
                            information about the system we were attacking.

                        •   Open ports. Some printers and computers were configured with
                            open network service and telnet ports when not required by any
                            business need.

                        •   Weak X.509 certificate encryption. We found some systems
                            were using weak algorithms to encrypt their certificates, which
                            are used to authenticate computers over the BEP local area



6
  BIOS is the first code run by a computer when powered on. The BIOS primarily determines which
operating system should be loaded.
7
  Microsoft Windows Registry is a hierarchical database that stores configuration settings and options
on Microsoft Windows operating systems.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)         Page 14
                            network.

                        •   Weak Hypertext Transfer Protocol encryption. We found that
                            some BEP systems were not using Hypertext Transfer Protocol
                            Secure (HTTPS). It is an acknowledged best practice to
                            implement HTTPS wherever possible to prevent the accidental
                            transmission of sensitive information.

                        •   Anonymous user login 8 . We found that some systems were
                            allowing access to Oracle and network services with
                            anonymous or null accounts, which could grant an attacker
                            access to network services without requiring authentic user
                            credentials.


                        We exploited the first four of these vulnerabilities to extract
                        personal and official information from BEP users’ computers in the
                        presence of those users during our social engineering test.

                        According to the National Institute of Standards and Technology
                        Special Publication 800-53, “Recommended Security Controls for
                        Federal Information Systems and Organizations” (May 2010),
                        organization should configure the information to provide only
                        essential capabilities. Additionally, the SANS Institute InfoSec
                        Reading Room paper entitled, Why Bother About BIOS Security,
                        recommends that passwords be used on every computer in order to
                        protect the BIOS configuration utility.

                        According to BEP’s Chief of Office of Critical Infrastructure and IT
                        Security, the risks associated with some of the vulnerabilities were
                        accepted due to business needs. However, there was no
                        documentation supporting those determinations. For the other
                        vulnerabilities that were identified, no explanation was provided.
                        We believe this is because either BEP was unaware the


8
 An access control quality, which can be a weakness, where a lot of secure servers allow users to
access general-purpose or public services and resources without owning a user-specific account that is
pre-established, something like a user name or secret password, lowering internet security and network
security because there is no secure authentication.



BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)        Page 15
                        vulnerabilities existed or unable to effectively manage the variety of
                        hardware and software configurations in their environment.

                        These categories of vulnerabilities could be exploited by malicious
                        insiders in various ways, leaving BEP’s systems at risk of data
                        exposure, modification or deletion. Moreover, taking advantage of
                        these vulnerabilities, we were able to easily gain access to an
                        individual’s bank website login information, as well as logins to
                        other websites.

                        Recommendations

                        We recommend that the Director of BEP do the following:

                        5.    Review and enhance existing vulnerability assessment
                              procedures to better ensure critical risks are tracked and
                              remediated.

                        Management Response

                        BEP management stated that it will review and enhance existing
                        vulnerability assessment procedures to better track and mitigate
                        critical risks.

                        OIG Comment

                        Management’s planned corrective action is responsive to our
                        recommendation. However, BEP management will need to establish
                        a definitive date that this planned action is expected to be
                        completed in JAMES.

                        6.    Review and enhance baseline security configuration policies to
                              provide for more effective security settings, including those
                              related to removable media.

                        Management Response

                        BEP management stated that it documented configuration baselines
                        for supporting USB-cameras, and will review its policies to
                        determine where better documentation would be appropriate.




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 16
                        OIG Comment

                        Management’s planned corrective actions are responsive to our
                        recommendation. However, BEP management will need to establish
                        a definitive date that this planned action is expected to be
                        completed in JAMES.

                        7.    Ensure full disk encryption is implemented on all BEP
                              desktops.

                        Management Response

                        BEP management stated that full disk encryption on BEP local area
                        network/wide area network desktops is being implemented with
                        the Windows 7 migration. Deployment efforts are underway to
                        complete the migration by the end of March 2012.

                        OIG Comment

                        Management’s planned corrective actions are responsive to our
                        recommendation.

                        8.    Update the BIOS to prevent booting from alternate media
                              without entering the BIOS password.

                        Management Response

                        BEP management stated that enhanced BIOS security on BEP local
                        area network/wide area network desktops is being implemented
                        with the Windows 7 migration. Deployment efforts are underway
                        to complete the migration by the end of March 2012.

                        OIG Comment

                        Management’s planned corrective actions are responsive to our
                        recommendation.

                        9.    Review printer configurations and disable unnecessary
                              protocols.




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 17
                        Management Response

                        BEP management stated that it has implemented the required
                        changes to printer configurations to disable unnecessary protocols.

                        OIG Comment

                        Management’s reported corrective actions are responsive to our
                        recommendation.

                        10. Change default passwords on all BEP Oracle servers.

                        Management Response

                        BEP management stated that it has implemented the required
                        changes to Oracle servers.

                        OIG Comment

                        Management’s reported corrective actions are responsive to our
                        recommendation.

                        11. Replace internal systems’ certificates with those that meet
                            Federal Information Processing Standards, and review internal
                            systems to determine whether HTTPS should be enabled.

                        Management Response

                        BEP management stated that based on the recommendation and
                        findings, BEP has initiated a re-review of the HTTPS control usage
                        on the internal network to identify if changes are required for
                        specific systems. This review is being factored into each systems
                        standard certification and accreditation review process as an
                        ongoing effort.

                        OIG Comment

                        Management’s corrective actions are responsive to our
                        recommendation. We would like to emphasize that BEP will need to
                        replace internal systems’ certificates with those that meet Federal
                        Information Processing Standards. BEP management will also need



BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 18
                        to establish a definitive date that this planned action is expected to
                        be completed in JAMES.


Finding 4               Public-Facing Websites Did Not Fully Comply With OMB
                        M-10-22

                        We found that the privacy policy statement posted on BEP’s public-
                        facing websites MoneyFactory.gov, 9 NewMoney.gov 10 and
                        MoneyFactoryStore.gov, 11 did not fully comply with OMB
                        Memorandum M-10-22, “Guidance for Online Use of Web
                        Measurement and Customization Technologies.” OMB M-10-22
                        places requirements on federal websites that use cookies, focusing
                        on privacy policies. The goal is to respect and safeguard the
                        privacy of the American public while allowing the Government to
                        improve and modernize its online operations by using cookies, a
                        practice that had been prohibited by a previous OMB memorandum.

                        We found that BEP used cookies without publishing the
                        notifications of data usage and safeguards for the privacy of its
                        users as required by OMB M-10-22. In addition, the open
                        government pages linked on the three websites did not provide
                        sufficient privacy information, or publish the results of annual
                        reviews of compliance with OMB M-10-22 and provide a means for
                        the public to provide feedback on the results of those reviews as
                        required.

                        BEP managers told us that they were not aware of the presence of
                        the cookies because they did not request cookies from the website
                        hosting contractor. Regardless, BEP is responsible for complying
                        with the OMB guidance relating to the safeguarding of the
                        American public’s privacy.




9
  http://www.MoneyFactory.gov is an alias for http://www.bep.gov and is the main public website for
the Bureau of Engraving and Printing.
10
   http://www.NewMoney.gov is a website whose content is centered on familiarizing various interest
groups and the public in general, about the new $100 note.
11
   http://www.MoneyFactoryStore.gov is the BEP's online store, selling currency-related items to the
public.


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)       Page 19
                        Recommendations

                        We recommend that the Director of BEP do the following:

                        12. Ensure the privacy policy statement for BEP’s public-facing
                            websites include all elements required by OMB M-10-22.

                        Management Response

                        BEP management stated that BEP's privacy statements describe
                        the web measurement and cookie use for the sites. BEP is working
                        to reorganize the information presented to clearly demonstrate
                        compliance with all elements required by OMB M-10-22. The
                        updated privacy policies will be deployed once approved, but no
                        later than the end of the calendar year 2011.

                        OIG Comment

                        Management’s planned corrective actions are responsive to our
                        recommendation.

                        13. Perform annual reviews of BEP public-facing websites for
                            compliance with OMB M-10-22 and report the results on the
                            “/open” webpage of the websites.

                        Management Response

                        BEP management stated OMB M-10-22 does not require "/open"
                        webpages on each website. The directive requires "/open"
                        webpages on the Agency's website. For BEP, Treasury’s website
                        satisfied this requirement, since it has and maintains the “/open”
                        reports required by OMB M-10-22. BEP maintains open
                        communication with Treasury’s Privacy Office to coordinate any
                        required reporting requirements. To date, Treasury made no official
                        request from BEP to publish specific reports on the "/open"
                        webpages. BEP continues to work with Treasury to ensure
                        compliance with OMB directives.

                        OIG Comment

                        Management's response meets the intent of our recommendation.
                        We contacted the Office of Privacy, Transparency and Records


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 20
                        (OPTR) seeking its response on BEP's comment regarding the "/
                        open" web pages issue. OPTR management informed us that they
                        did not initiate "open" web pages review and, therefore, had not
                        posted any verification results on the Treasury's "/open" page.
                        OPTR stated that intends to move forward with this in the near
                        future, in coordination with the Treasury Office of the Chief
                        Information Officer (OCIO). Specifically, the Treasury OCIO is
                        revising the current directive, TD 81-08, Certification Process for
                        the Use of Persistent Cookies on Treasury Web Sites, to
                        incorporate OMB Memoranda M-10-22 and M-10-23. It is
                        anticipated that OPTR and Treasury OCIO staff will jointly initiate
                        the review requirement in FY 2012, after which the results will be
                        posted.


                                                         ******

                        I would like to extend my appreciation to the Director of BEP and
                        his staff for the cooperation and courtesies extended to my staff
                        during the audit. If you have any questions, please contact me at
                        (202) 927-5171 or Abdirahman M. Salah, IT Audit Manager, at
                        (202) 927-5763. Major contributors to this report are listed in
                        appendix 4.

                        /s/

                        Tram Jacquelyn Dang
                        Audit Director




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 21
                        Appendix 1
                        Objectives, Scope, and Methodology


                        The objective of this audit was to determine whether sufficient
                        protections were in place to prevent and detect intrusions into the
                        Bureau of Engraving and Printing’s (BEP) networks and systems.
                        This audit is included in the Office of Inspector General Annual Plan
                        for 2010.

                        To accomplish our objective, we utilized specialized software to
                        conduct our vulnerability assessment, penetration test, internet-
                        facing websites assessment, and social engineering. Specifically,
                        we performed the following:

                        •   We completed the vulnerability assessment and penetration
                            tests inside BEP’s network from an insider perspective with full
                            knowledge of BEP and system access.

                        •   We used statistical sampling to analyze the missing critical
                            patches in desktop and server systems identified by our
                            network vulnerability scans. We reviewed a random sample of
                            55 of the 220 missing critical desktop patches and 50 of the
                            152 missing critical server patches for the dates they were
                            issued. We found that 33 of 55 (60 percent) missing critical
                            desktop patches and 25 of 50 (50 percent) missing critical
                            server patches were over 365 days old. This result was
                            represented by a confidence level of 95 percent a sample
                            precision of 5 percent, and expected error rate of 5 percent.

                        •   For BEP’s internet-facing websites that were external to BEP’s
                            network, we only used information available to the general
                            public.

                        •   We performed a social engineering test to determine whether
                            BEP users were aware of cybersecurity threats or understood
                            their roles in protecting agency information technology
                            resources.

                        •   We reviewed and analyzed documents related to BEP’s network
                            and systems, and interviewed BEP information technology
                            security and operations personnel.

                        We performed our fieldwork at BEP headquarters location in
                        Washington, DC, from May 2010 through April 2011. Upon
                        completion of our tests, we provided BEP’s Chief Information


BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 22
                        Appendix 1
                        Objectives, Scope, and Methodology


                        Officer staff with the reports generated by our automated
                        assessment tools in July 2010, so that timely corrective actions
                        could be taken. The reports provided details on specific
                        vulnerabilities detected and exploited, and the suggested actions
                        necessary to address them. We also provided BEP management
                        with Notifications of Findings and Recommendations along with our
                        analysis of the issues reported by the tools we used. The results of
                        this audit may be used to support our work undertaken in
                        accordance with the requirements of the Federal Information
                        Security Management Act.

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to prove a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 23
                        Appendix 2
                        Management Response




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 24
                        Appendix 2
                        Management Response




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 25
                        Appendix 2
                        Management Response




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 26
                        Appendix 2
                        Management Response




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 27
                        Appendix 2
                        Management Response




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 28
                        Appendix 3
                        Screenshots of Real-Time BEP User Activity




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 29
                        Appendix 3
                        Screenshots of Real-Time BEP User Activity




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 30
                        Appendix 4
                        Major Contributors To This Report




                        Office of Information Technology (IT) Audit

                            Tram J. Dang, Audit Director
                            Abdirahman M. Salah, IT Audit Manager
                            Kevin Mfume, IT Specialist
                            Yeshorohan K. Mandadi, IT Specialist
                            Daniel A. Jensen, IT Specialist
                            Gerald Kelly, Referencer




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 31
                        Appendix 5
                        Report Distribution


                        Department of the Treasury

                            Office of the Chief Information Officer
                            Office of Accounting and Internal Control
                            Office of Strategic Planning and Performance Management

                        Office of Management and Budget

                            Office of Inspector General Budget Examiner




BEP's Network and Systems Security Was Found to Be Insufficient (OIG-11-112)   Page 32
